                                            SENSITIVE BUT UNCLASSIFIED


OFFICE OF INSPECTOR GENERAL
                                                      United States Department of State
                                                      and the Broadcasting Board of Governors
                                                      Office of Inspector General




                              OFFICE OF INSPECTIONS

                              Inspection of Radio Free Asia



                              Report Number ISP-IB-11-29, March 2011
Inspector
General
Office of




                                                                     IMPORTANT NOTICE
                              This report is intended solely for the official use of the Department of State or the Broadcasting Board
                              of Governors, or any agency or organization receiving a copy directly from the Office of Inspector
                              General. No secondary distribution may be made, in whole or in part, outside the Department of State
                              or the Broadcasting Board of Governors, by them or by other agencies or organizations, without prior
                              authorization by the Inspector General. Public availability of the document will be determined by the
                              Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in
                              criminal, civil, or administrative penalties.



                                            SENSITIVE BUT UNCLASSIFIED
      SENSITIVE BUT UNCLASSIFIED




     PURPOSE, SCOPE, AND METHODOLOGY
            OF THE INSPECTION
This inspection was conducted in accordance with the Quality Standards for
Inspections, as issued by the President’s Council on Integrity and Efficiency,
and the Inspector’s Handbook, as issued by the Office of Inspector General
for the U.S. Department of State (Department) and the Broadcasting Board of
Governors (BBG).

Purpose
The Office of Inspections provides the Secretary of State, the Chairman of the
BBG, and Congress with systematic and independent evaluations of the opera-
tions of the Department and the BBG. Inspections cover three broad areas,
consistent with Section 209 of the Foreign Service Act of 1980:
 • Policy Implementation: whether policy goals and objectives are being effec-
   tively achieved; whether U.S. interests are being accurately and effectively
   represented; and whether all elements of an office or mission are being
   adequately coordinated.
    In accordance with the U.S. International Broadcasting Act of 1994 (P.L.
    103-236) Section 304(a)(3)(B), OIG is prohibited from evaluating the
    content of BBG broadcasting entities. The section, entitled “Respect for
    Journalistic Integrity of Broadcasters,” states that “The Inspector General
    shall respect the journalistic integrity of the broadcasters covered by this
    title and may not evaluate the philosophical or political perspectives
    reflected in the content of broadcasts.”
 • Resource Management: whether resources are being used and managed
   with maximum efficiency, effectiveness, and economy and whether
   financial transactions and accounts are properly conducted, maintained,
   and reported.
 • Management Controls: whether the administration of activities and opera-
   tions meets the requirements of applicable laws and regulations; whether
   internal management controls have been instituted to ensure quality
   of performance and reduce the likelihood of mismanagement; whether
   instance of fraud, waste, or abuse exist; and whether adequate steps for
   detection, correction, and prevention have been taken.

Methodology
In conducting this inspection, the inspectors: reviewed pertinent records;
as appropriate, circulated, reviewed, and compiled the results of survey
instruments; conducted on-site interviews; and reviewed the substance of
the report and its findings and recommendations with offices, individuals,
and organizations by this review.




      SENSITIVE BUT UNCLASSIFIED
                                                    United States Department of State
                                                    and the Broadcasting Board of Governors

                                                    Office of Inspector General




                                         PREFACE


     This report was prepared by the Office of Inspector General (OIG) pursuant to the Inspector
General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980, as
amended. It is one of a series of audit, inspection, investigative, and special reports prepared by
OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

     This report is the result of an assessment of the strengths and weaknesses of the office, post,
or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

      The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective,
efficient, and/or economical operations.

     I express my appreciation to all of those who contributed to the preparation of this report.




                                           Harold W. Geisel
                                           Deputy Inspector General
SENSITIVE BUT UNCLASSIFIED




SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED



                                   TABLE OF CONTENTS

KEY JUDGMENTS�������������������������������������������������������������������������������������������������������������� 1
CONTEXT���������������������������������������������������������������������������������������������������������������������������� 3
EXECUTIVE DIRECTION ������������������������������������������������������������������������������������������������ 5
LANGUAGE SERVICE PROGRAMMING ������������������������������������������������������������������������ 7
USE OF INTERNET AND NEW MEDIA�������������������������������������������������������������������������� 9
AUDIENCE RESEARCH AND MEASURING EFFECTIVENESS �������������������������������� 13
MAINTAINING JOURNALISTIC STANDARDS �����������������������������������������������������������15
TECHNICAL OPERATIONS DIVISION ������������������������������������������������������������������������ 17
RESOURCE MANAGEMENT�������������������������������������������������������������������������������������������19
    Human Resources������������������������������������������������������������������������������������������������������������ 20
    Financial Management���������������������������������������������������������������������������������������������������� 24
    Personal Property Management���������������������������������������������������������������������������������������� 26
    Internal Controls�������������������������������������������������������������������������������������������������������������� 26
RECOMMENDATIONS���������������������������������������������������������������������������������������������������� 27
INFORMAL RECOMMENDATIONS������������������������������������������������������������������������������ 29
RADIO FREE ASIA PRINCIPAL OFFICIALS������������������������������������������������������������������ 33
ABBREVIATIONS�������������������������������������������������������������������������������������������������������������� 35
APPENDIX A: RADIO FREE ASIA CODE OF JOURNALISTIC ETHICS�������������������� 37
APPENDIX B: RADIO FREE ASIA AWARDS (2010–2009)���������������������������������������������� 39
APPENDIX C: RADIO FREE ASIA’S SOCIAL AND
NEW MEDIA DISTRIBUTION���������������������������������������������������������������������������������������� 41




                               OIG Report No. ISP-IB-11-29 - Inspection of Radio Free Asia - March 2011                                   iv


                       SENSITIVE BUT UNCLASSIFIED
    SENSITIVE BUT UNCLASSIFIED




v     OIG Report No. ISP-IB-11-29 - Inspection of Radio Free Asia - March 2011


    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



KEY JUDGMENTS

•	 Radio Free Asia’s (RFA) personnel at all levels are dedicated to its mission of providing
   accurate and timely news and information to Asian countries whose governments
   prohibit access to a free press. Staff morale and job satisfaction are high.
•	 The RFA president and senior management team are providing strong direction for
   the organization. On questionnaires, personnel give high marks to the RFA president.
•	 Program jamming and Internet censorship pose significant challenges. Traditional
   audience research cannot ensure precise RFA audience numbers because of the
   difficulties of doing research in restricted countries. RFA has been innovative in
   designing other research and measurements of impact to reflect the accomplish-
   ments of its mission. Increasingly, RFA’s language services use the Internet, social
   media, and citizen journalists as options for reaching target audiences.
•	 In a tight economy, RFA’s technical operations division is creative in marshaling
   its resources and in looking for alternative ways of doing business and of ensuring
   cyber security.
•	 There could be more cross-fertilization of ideas among the language services, but
   this condition arises from the market-focused nature of surrogate broadcasting,
   cultural sensitivities, language problems, and the fast pace of the work. The
   situation shows improvement, especially as language services are beginning to
   coordinate efforts in the use of social media and the Internet.
•	 Communications between the programming and technical divisions about social
   media and the Internet could be improved. There is a need that both sides engage
   in regularly scheduled meetings to discuss needs, desires, problems, opportuni-
   ties, priorities, implementation schedules, and financial and personnel realities.
•	 RFA has made major improvements in management and administration since the
   last OIG report in August 2003. RFA provides good administrative support to all
   employees located in Washington, DC, headquarters and in overseas offices. The
   administrative support gets high marks from RFA staff.

All findings and recommendations in this report are based on conditions observed
during the on-site review and the standards and policies then in effect. The report
does not comment at length on areas where OIG did not identify problems that need
to be corrected.

The inspection took place in Washington, DC, between September 15 and
November 23, 2010. (b) (6)



                     OIG Report No. ISP-IB-11-29 - Inspection of Radio Free Asia - March 2011   1


               SENSITIVE BUT UNCLASSIFIED
    SENSITIVE BUT UNCLASSIFIED




2     OIG Report No. ISP-IB-11-29 - Inspection of Radio Free Asia - March 2011


    SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



CONTEXT

RFA began radio broadcasting in September 1996. It is a private, nonprofit news
organization, operating under a grant from the Broadcasting Board of Governors
(BBG),1 broadcasting daily in nine languages to listeners in Asia whose governments
restrict media and control the news and information. Through shortwave, medium
wave, satellite transmission and the Internet, RFA broadcasts to seven specific coun-
tries mandated by Congress: China, Tibet, North Korea, Vietnam, Cambodia, Laos,
and Burma using their languages and several dialects. RFA has eight offices/hubs
throughout Asia and a network of stringers around the world. It must be creative in
overcoming jammed transmissions and Internet censorship and in using a variety of
media and methods to connect with its different audiences.

RFA was originally authorized through Section 309 of the International Broadcasting
Act of 19942 with a requirement for annual authorization. In June 2010, Congress
showed its support of RFA’s mission and removed a sunset clause from the original
authorization, thus permanently authorizing RFA.3

BBG has two entities that broadcast into China. RFA and Voice of America’s (VOA)
Chinese branch have complementary missions. RFA’s mission is to serve as a surro-
gate broadcaster. Its programming primarily comprises domestic news and informa-
tion of unique and specific interest to its listeners. VOA’s Chinese branch follows
the VOA Charter to represent America, not any single segment of American society,
and therefore to present “a balanced and comprehensive projection of significant
American thought and institutions.” VOA is mandated to present the policies of the
United States clearly and effectively, and to also present responsible discussions and
opinion on these policies.4

According to RFA management, the media and human rights situation in RFA’s
target regions today is as bad as or worse than 12 months ago. Freedom House’s most
recent press freedom index, released in April 2010, names every RFA target country
as “not free.” All but one of RFA’s target countries and eight of its nine languages are
in the bottom 10 of the entire 196 countries rated, and North Korea is 196th. For


1
 The Broadcasting Board of Governors is an independent Federal agency which supervises all U.S.
Government-supported, nonmilitary international broadcasting, including the Voice of America; Radio Free
Europe/Radio Liberty; the Middle East Broadcasting Networks (Alhurra TV and Radio Sawa); Radio Free
Asia; and the Office of Cuba Broadcasting.
2
    22 U.S.C. 6208
3
    PL 111-202
4
    See OIG’s Inspection of Voice of America’s Chinese Branch, Report No. ISP-IB-10-53, July 2010.



                             OIG Report No. ISP-IB-11-29 - Inspection of Radio Free Asia - March 2011      3


                      SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED



    human rights, a June 2010 Freedom House report identified China, Laos, Burma,
    North Korea, and the Tibetan territory as among this year’s “worst of the worst” for
    political rights and civil liberties. In an October 2010 press release, RFA’s president
    said, “This year’s World Press Freedom Index is a sober reminder of how dire this
    situation remains in Asia and much of the world.”5




    5
        “Radio Free Asia Responds to 2010 Press Freedom Index,” October 20, 2010.



4                              OIG Report No. ISP-IB-11-29 - Inspection of Radio Free Asia - March 2011


                         SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



EXECUTIVE DIRECTION

Through individual meetings with RFA management and staff plus responses to
personal questionnaires, the OIG inspection team observed that RFA has strong,
experienced executive direction. Management and staff alike praised the RFA
president and on questionnaires gave consistently high ratings of her performance.
She came to RFA at a time when the organization was experiencing organizational
problems and became president in 2005. Her ability to speak Mandarin and her
experience as a labor-relations lawyer are invaluable assets. Many people in RFA and
BBG spoke of her passion for the RFA mission and her ability to make decisions that
result in a well functioning organization whose staff are proud of their contributions.
In addition to her management skills, she is highly esteemed for her concern for
individual workers.

The senior management team is well qualified. The vice president for programming,
who helped set up RFA, is a well respected veteran journalist. The vice president for
administration and finance brought years of experience from the corporate world to
efficiently manage RFA’s business. The chief technology officer and chief financial
officer have also been with RFA from the beginning and have helped shape its
current operations. Likewise, the human resources manager, chief financial officer,
and legal counsel have created or systematized policies and procedures that were
lacking from the early days. Of the nine language service directors, six came to RFA
within the first 2 or 3 years and have seen advances in their services.

OIG published a report on RFA in 20036 when the organization was going through
major organizational and management challenges. The current RFA executive
management has significantly addressed most of the management weaknesses
outlined at that time.

Two common trends were identified in the personal questionnaires filled out by the
RFA employees (221 questionnaires from a total of 261 employees, an 85 percent
response rate). The first was that a majority of the respondents mentioned how proud
they were to be working for an organization like RFA that was performing a crucial
mission. Secondly, nearly 90 percent of the respondents rated their morale as a 4 or
5 on a scale of 1 (low) to 5 (high). Even those few employees who voiced a number
of complaints about RFA still rated their morale at 4 or 5, because of the chance to
work for a company with such an important purpose.




6
    Review of Radio Free Asia Activities, Report No. IBO-A-03-05, August 2003.



                            OIG Report No. ISP-IB-11-29 - Inspection of Radio Free Asia - March 2011   5


                     SENSITIVE BUT UNCLASSIFIED
    SENSITIVE BUT UNCLASSIFIED




6     OIG Report No. ISP-IB-11-29 - Inspection of Radio Free Asia - March 2011


    SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



LANGUAGE SERVICE
PROGRAMMING

The on-board staffing for the RFA language services and hours of broadcasts in FY
2010 vary, with four services now producing Webcasts.

     Language Service          Staffing                                      Programming
 Burmese Service                   18          3 hours original/day plus 1 hour of repeat – 7 days/week; SW,
                                               FM, and satellite; Internet
 Cambodian Service                 13          2 hours original/day, 7 days/week; SW, FM, and satellite; Internet
                                               (supplemented by contractors in Phnom Penh office)
 Cantonese Service                  5          2 hours/day – 1 hour live in the morning and updated/repeated in
                                               the afternoon – 7 days/week; SW and 24-hour streaming audio
                                               over satellite; Internet
 Korean Service                    22          5 hours/day, 7 days/week (3 original hours, half an hour repack-
                                               aged, and 1 hour and a half repeated); SW, MW, and satellite;
                                               Internet
 Laotian Service                   14          2 hours original/day 7 days/week; SW, FM, and satellite; Internet
 Mandarin Service                  40          6 hours original/day and 6 hours of repeat 7 days/week; SW,
                                               MW, and satellite; Internet; webcasting
 Tibetan Service                   36          5 hours original and 5 hours repeat 7 days/week; SW and satel-
                                               lite; Internet; webcasting
 Uyghur Service                    13          2 hours daily with Saturday and Sunday news updates; SW and
                                               satellite; Internet; webcasting
 Vietnamese Service                18          2 hours original/day, 7 days/week; SW, FM, and satellite;
                                               Internet; webcasting

SW=short wave; MW=medium wave/AM radio

Source: RFA, 2010




                        OIG Report No. ISP-IB-11-29 - Inspection of Radio Free Asia - March 2011                    7


                     SENSITIVE BUT UNCLASSIFIED
    SENSITIVE BUT UNCLASSIFIED




8     OIG Report No. ISP-IB-11-29 - Inspection of Radio Free Asia - March 2011


    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



USE OF INTERNET AND NEW MEDIA

Despite its name, RFA is not just about radio broadcasting—and has not been for
many years. Admittedly, radio in all its forms (shortwave, FM, and AM) is still an
important component of the RFA programming mix, and in many parts of the RFA
domain radio is still an absolute necessity. However, RFA has moved strongly and
adeptly into the realm of the Internet and new media.

One reason for this expansion is the persistent and effective jamming of radio signals
by governments that consistently rank at the bottom of press freedom indices. Given
the pervasive obstruction of radio signals, it was only logical for RFA to take advan-
tage of alternate methods of information delivery. Notwithstanding, the move to
new technologies also has a generational reason: even in some of the most repressive
regimes in the world, there are people who know how to use the latest gadgets to get
the news they want.

In interviews, documents, and demonstrations, the OIG team observed that RFA is
passionate about reaching its audience by whatever means possible. Each of the nine
language services has its own Web site, and there is one Web site in English as well.
The Web sites serve as platforms for many information services: language-specific
text versions of radio news and features, video Webcasts, news/topical blogs, regularly
updated RSS news feeds, cell-phone feeds, streaming videos, newsletters, Facebook
links, Twitter click-points, YouTube channels, comment/dialogue sections, message
boards, podcasts, and news-tip drop-boxes. A Flickr site displays program-related
photographs. A flash video player has its own playlist for each of the language
services. Using Skype rather than toll-free lines for call-in shows has proven to be
cheaper for RFA and more secure for the callers. Distribution of news headlines to
mobile devices has just begun. Implementation is under way for news distribution
via smart phone with Wi-Fi technology and capability. Additionally, to help visitors
access its blocked Web sites, RFA is developing proxy server technology to circum-
vent Web censors. (See Appendix C for a list of RFA social and new media sites.)

“Citizen journalists” are also a new part of the programming mix. The photos,
videos, comments, and tips they share enrich communication and provide RFA with
story leads and news content—such as footage of the 2009 crackdown on Uyghur
protests in China—not otherwise available from within its information-restricted
client countries. In addition, the comment sections of Web sites allow visitors to
interact with each other and with RFA in ways forbidden by their governments.
These developments are beginning to match the vision of Broadcasting Board of
Governors Chairman Walter Isaacson, who wants “a new approach that catalyzes



                    OIG Report No. ISP-IB-11-29 - Inspection of Radio Free Asia - March 2011   9


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



     social networks” and “peer-to-peer global communities” that can “help guarantee the
     universal human right of access to the free flow of information.”

     RFA takes steps to ensure reliability when using material from citizen journalists.
     The two-source rule is used, even if it slows down the story. Some of the citizen
     journalists may have their own political agenda or may be false leads to compromise
     RFA’s journalistic reputation. For stories about protests, reporters must call the local
     police to confirm the event and identify themselves as journalists with RFA. A source
     might say that there were 200 people at a demonstration. The police may confirm
     that it took place but say the count was closer to 50. The Web editors carefully
     examine photographs to catch any clues that might signify misidentification, such as
     the photo of a previous typhoon being claimed as a recent flood.

     All of these new media approaches seem to be working. In 2009, direct visits to RFA
     Web sites increased by 41 percent over 2008. In 2010, visits increased by another 13
     percent. The nine RFA YouTube channels are consistently in the top ten of non-profit
     channels, despite the fact that RFA content is in Asian languages and YouTube is
     mostly an English-language phenomenon. The Vietnamese-service webcasts on
     YouTube have been ranked number one in the world among non-profit organizations,
     despite the fact that the RFA Web site itself is blocked in Vietnam. Almost every
     language service has a ready example of its target country finally acknowledging a
     societal problem only after an RFA Web site has brought it to public attention.

     Some of this flourishing of media is the result of the hiring of new tech-savvy
     employees, but much of it is thanks to the adaptability of traditional, veteran radio
     broadcasters, who have taken on webcasting duties in order to better fulfill their
     mission of bringing news to those who are deprived of it. Regular meetings of the
     new-media personnel of all of the language services help share best practices through-
     out the company, the Web site managing editor fosters a culture of continuous devel-
     opment, and RFA senior management provides both moral and financial support to
     new media. The International Broadcasting Bureau’s Office of New Media is also
     supportive. In addition, a soon-to-open video studio will vastly improve the quality of
     webcast programs now being recorded in general-purpose meeting rooms and vacant
     spaces.

     While all of the language services have participated in the development of these new
     media opportunities, none of them is compelled to follow the same path. In-country
     technological conditions and user preferences are acknowledged: where the Internet
     is underdeveloped and less appreciated, the emphasis is on traditional forms of
     communication; where modern technology is racing ahead, every advance is used as
     an opportunity for programmatic advantage.

     The new media aspect of RFA is a continual work in progress, and RFA is always
     on the look-out for new ways to reach its audience. Its wish list, should funding ever


10                       OIG Report No. ISP-IB-11-29 - Inspection of Radio Free Asia - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



be available, includes additional editorial capacity for video production, the hiring
of mobile-device content editors, increasing in-country video production, and the
addition of social-network outreach specialists to all language services.

As might be expected in a field as constantly changing as new media, there can be
practical problems. Chief among these seems to be a communication disconnect.
Some of the technical operations people, who make the systems function, think
the new media people are demanding, impatient, or inclined to want the next big
thing. Many of the new media people, on the other hand, find the technical opera-
tions people to be slow, uninterested, or lacking in technical skills to bring them
the advances they feel they need in areas such as Web page redesign, search-engine
updating, and archive transference. RFA management said that this was a known
issue that RFA had begun to address prior to the OIG visit in order to promote a
more holistic approach to workflow and content creation for the Web. It plans to
update and reinstall relevant software.

Because of the lack of mutual understanding between the two groups, the OIG team
left an informal recommendation that representatives of both sides engage in regularly
scheduled meetings to discuss needs, desires, problems, opportunities, priorities,
implementation schedules, and financial and personal realities.




                    OIG Report No. ISP-IB-11-29 - Inspection of Radio Free Asia - March 2011   11


               SENSITIVE BUT UNCLASSIFIED
     SENSITIVE BUT UNCLASSIFIED




12     OIG Report No. ISP-IB-11-29 - Inspection of Radio Free Asia - March 2011


     SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



AUDIENCE RESEARCH AND
MEASURING EFFECTIVENESS

RFA’s strategic planning process falls under the BBG Strategic Plan 2008-2013.
Through audience research, RFA identifies BBG strategies that align with opportuni-
ties in its target countries and implements plans in each of its language services. RFA
is covered by the BBG audience research contract with InterMedia, which reports
on audience reach (the number of people who have read/seen/heard an RFA item in
the last week), how people judge RFA’s reliability and credibility, and whether RFA
enhances understanding. InterMedia employs subcontractors familiar with specific
countries and language groups to collect information and conduct polling.

Both RFA and the contractor explained the difficulties in conducting research in
RFA countries and gathering reliable numbers about listeners.

   1.	 Audience estimates do not include any listeners for Tibetan, Korean, and
       Uyghur services. Refugee surveys suggest RFA listening rates are quite high
       among the 5.4 million Tibetans and 23 million North Koreans. Anecdotal
       evidence also suggests substantial audiences among the estimated nine
       million Uyghurs living under Chinese rule.

   2.	 Audience estimates also do not include estimates of listening in areas that
       were not sampled. This severely limits data on Lao and Vietnamese listening.

   3.	 Audience measurement becomes absolutely impossible during crises when
       audiences are highest. Research firms refuse to conduct surveys during crises,
       when RFA knows the reliance on international radio peaks. For example,
       following the 2007 antigovernment Saffron Revolution in Burma, RFA’s
       audience research subcontractor left the area because the situation was too
       dangerous.

   4.	 Internet traffic reports do not include data from those who visited via proxy
       servers and other “anonymizing” systems—the majority of traffic in China
       and Vietnam. To date, there is not a consistent system for measuring indirect
       impact of digital content.

   5.	 People are fearful of telling strangers about listening to an illegal station or
       accessing a banned site.




                    OIG Report No. ISP-IB-11-29 - Inspection of Radio Free Asia - March 2011   13


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



     Under these circumstances, the most recent figures for measurable audience for
     RFA totaled 9.7 million for regular listeners and 15.4 million for annual listeners.
     According to RFA, the research information needs to be triangulated with other
     information. Surveys only tell part of the story. BBG policy is not to project audi-
     ence size based on refugee, defector, or traveler data. That rules out the information
     obtained from interviewing recent Tibetan refugees in Nepal and North Korean
     refugees and travelers from the region. RFA’s research director said that the research
     done on North Korea is the first quantitative research for the audience. There are no
     data for Uyghur. Cantonese data are 7 years old, though RFA will field a survey this
     year in Guangdong.

     To supplement audience research, RFA identifies other indications of impact. It
     counts on anecdotal information such as listeners’ comments on the Web and blogs,
     call-in show participants, emails, letters, and phone calls. RFA knows that informa-
     tion is also spread through word-of-mouth networks or as republication of RFA
     materials on blogs. RFA has no measure for the word-of-mouth networks but can
     keep track when it finds its materials on blogs. In addition, RFA tracks the growing
     number of times that its stories are picked up by reputable media organizations. This
     is especially important in times of national crises when RFA, often the only organiza-
     tion with sources inside a country, can provide fast-breaking reliable news to the
     outside. RFA also has numerous examples when one of its stories has forced the local
     regimes to take action on a problem that was previously hidden.




14                       OIG Report No. ISP-IB-11-29 - Inspection of Radio Free Asia - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



MAINTAINING JOURNALISTIC
STANDARDS

Journalistic standards are important to any news organization, and a government-
sponsored operation is no exception. RFA acknowledges its professional obligations in
a “Code of Journalistic Ethics” that is both broad and clear. (See Appendix A.) RFA
products must be “accurate, fair, and balanced”—there can be no stories based on unsub-
stantiated information, there will be no incitement to violence or emigration, there should
be no propaganda, there must be no connection to any political party or exile group.

RFA features the Code of Journalistic Ethics prominently on its Web site (for the
whole world to see) and posts it on the walls of its language-service work areas. The
Code is reinforced during on-the-job mentoring of new employees and often serves as
a topic during short training programs focused on journalistic professionalism (espe-
cially important in an organization that sometimes employs people more for their
linguistic abilities than their reporting pedigrees.) Even outside contractors, as they
prepare commentaries and reports, are subject to the same ethical standards.

On-the-ground implementation of the Code of Journalistic Ethics involves several
layers of management. Sub-editors and editors supervise reports in-progress. The
deputy directors of programming and the vice president of programming provide
guidance during the daily editorial meetings. Language-service managers review
finished reports and authorize their broadcast or on-line placement. Monitoring
committees, senior editors, deputy directors, or directors, (depending on the policy
of the individual language-service) listen to all actual broadcasts. Language-service
directors review every daily broadcast log with the aim of spotting and dealing with
anomalies. Each language service conducts annual program reviews in which experts
(including many from outside RFA) analyze a sampling of broadcasts to arrive at
critiques of both substance and style. In addition, radio listeners and Web site visitors
offer critical program feedback via comment sites and call-in programs.

Because no news organization is perfect, there can be flaws in news stories—even
when the standard guideline of having more than one source for a story has been
followed. According to State Department officials, RFA senior staff has always been
responsive to reports of editorial mistakes.

In addition, RFA can point with pride to external validation of the quality of its
journalistic output: in the last 2 years alone, RFA and its language-service compo-
nents have earned several international awards for their broadcasts and Web sites.
(See Appendix B.)


                     OIG Report No. ISP-IB-11-29 - Inspection of Radio Free Asia - March 2011   15


               SENSITIVE BUT UNCLASSIFIED
     SENSITIVE BUT UNCLASSIFIED




16     OIG Report No. ISP-IB-11-29 - Inspection of Radio Free Asia - March 2011


     SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



TECHNICAL OPERATIONS DIVISION

The Technical Operations Division manages all master control and studio opera-
tions; audio production; Web technical support; network and systems administration;
security and support; technology infrastructure and development; and facilities
services.

It is comprised of the program and operations support department (including the help
desk, which has improved significantly in the last year), the system administration/
security group, the projects/development group, the technical Web support group,
and Asian operations, all under the chief technical officer. Between employees and
contractors, the chief technical officer has 50 people reporting to him.

The two biggest challenges facing technical services are: 1) maintaining vigilance
against cyber security threats, including staying on top of the most current security
solutions developed by the industry, and 2) keeping current with technology changes,
both in hardware and software. These challenges are made more difficult in times of
constrained budgets (especially training budgets) and limitations on staffing slots.

In a tight economy, RFA’s technical operations division is creative in marshaling its
resources and setting priorities. Several people commented in their personal question-
naires that software and equipment were a problem. The chief technical officer said
that he tries to do the best he can and to stay current on the things that matter such
as Windows 7 and the servers. The personal computers are working well for most of
the staff, but funds are not available to provide the Web editors with updated equip-
ment. The OIG team heard from another manager that RFA is out of laptops. It
needs more coverage and upgrades because people want laptops for video and audio
editing. The chief technical officer finds replacement parts on eBay for the old previous
generation systems still being used in the studios. He is engaged in finding equipment
that is workable and within budget, although it may not be top-of-the-line. RFA
manages with what it has, but personnel in all areas said that they could do more and
better with improved equipment.




                    OIG Report No. ISP-IB-11-29 - Inspection of Radio Free Asia - March 2011   17


               SENSITIVE BUT UNCLASSIFIED
     SENSITIVE BUT UNCLASSIFIED




18     OIG Report No. ISP-IB-11-29 - Inspection of Radio Free Asia - March 2011


     SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



RESOURCE MANAGEMENT

RFA provides good administrative support to all employees located in DC head-
quarters and in overseas offices. RFA administrative services include finance, human
resources, procurement, technical operations, property management, and facilities.
The administrative services in general have improved dramatically since the last OIG
review.7 Besides providing good customer service, there are written standard operat-
ing procedures for all RFA administrative services accessible on the RFA intranet
Web site. Based on the personal questionnaires reviewed by the OIG team, the
employees are generally pleased with the administrative support.

As a grantee organization, RFA is not a Federal agency. Its funding comes from an annual
federal grant made and supervised by the Broadcasting Board of Governors, which
oversees all U.S. Government-sponsored civilian international broadcasting. Its operat-
ing requirements are stipulated in the grant agreement and in Office of Management
and Budget (OMB) Circulars No. A-110, A-122, and A-133. The estimated FY 2010
budget for RFA was $37.2 million, with $38.4 requested for FY 2011. RFA has 286
positions with 264 employees on board. Of this number, 253 employees are located
at the DC headquarters with the exception of one California-based correspondent for
RFA’s Mandarin Service. The remaining 11 employees work in RFA’s overseas bureaus:
four in Seoul; four in Hong Kong; two in Taipei; and one in Bangkok.

The personal questionnaires filled out by RFA employees and personal interviews
revealed that the greatest challenge that RFA faces today is the lack of resources. For
FY 2011, RFA is asking for an increase of seven positions and $38.4 million for total
funding. RFA has seen its impact and advancement of its mission grow exponentially
in the past couple of years. To meet its mission, many RFA employees are asked to
work overtime. A review of time and attendance revealed that RFA paid 8,536 hours
of overtime at a labor cost of $279,508. Many employees told the OIG inspection
team that sometimes they work extra hours without getting any formal compensation
because they are committed to their work and the mission of RFA. The OIG team
did not conduct a human capital review to determine if the organization is rightsized
or not. However, closer attention should be given to RFA’s request for additional
resources. The long hours and additional duties may affect the staff morale and create
work fatigue that eventually could affect the quality of the work.

Although RFA administration staff performs well, the OIG team identified some
minor weaknesses with regard to procurement competition and process and human
resources. The OIG team left informal recommendations addressing these and other
administrative areas.

7
    Review of Radio Free Asia Activities, OIG Report No. IBO-A-03-05, August 2003


                           OIG Report No. ISP-IB-11-29 - Inspection of Radio Free Asia - March 2011   19


                     SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



     HUMAN RESOURCES
     The Human Resources (HR) section at RFA has done an excellent job of codify-
     ing their policies and procedures, clearly communicating them to the employees,
     and making it easy to access human resources-related forms or get advice on policy.
     The director of Human Resources and his two-person staff and the general counsel
     devoted considerable effort to conducting a comprehensive review and recasting of all
     administrative policies and procedures. It took 2 years to review, update and consoli-
     date these policies and the update was published (Policies and Procedures site) on the
     RFA intranet Web page on August 23, 2010. Thus, these revised policies are now
     accessible to all employees whenever they need to consult them.


     Communications
     There could be more cross-fertilization of ideas among the language services, but this
     condition arises from the market-focused nature of surrogate broadcasting, cultural
     sensitivities, language problems, and the fast pace of the work. Journalists at various
     levels said that they do not know what their counterparts in other services are work-
     ing on. The vice president for Programming would like to improve the situation.
     At a short daily editorial meeting for the language service directors, OIG inspectors
     observed that he made a point of giving suggestions to the language service directors
     when there was the opportunity to work together on a story or to share photographs.
     It is up to the directors to convey this information to their employees. RFA manage-
     ment pointed out that there are two subgroups who work closely together: the five
     East Asian Services broadcasting to China and North Korea, and the four Southeast
     Asian services broadcasting to Burma, Laos, Vietnam, and Cambodia. RFA notes
     that the situation shows improvement for the stories that clearly go beyond the
     borders of these two groups, especially as language services are beginning to coor-
     dinate efforts in the use of social media and the Internet. The OIG team made an
     informal recommendation for some kind of regular coordination meeting for mid-
     level employees to share information.

     Four years ago, the HR section developed an on-line weekly newsletter to all
     employees—the HR Horizon. This newsletter features news about RFA, explana-
     tions about HR policies and procedures, notices about impeding visits, conferences
     or meetings, etc. The HR Horizon emphasizes the HR Toolkit which is on the RFA
     intranet and contains all the forms (accessible via Internet link), instructions and
     background information about the full range of HR issues. The HR staff use the
     newsletter to describe developments or changes in benefits and to explain the basics
     about each of the benefit packages and other relevant information. The newsletter
     welcomes new employees with a picture and brief bio, and notes major milestones
     and awards won by employees.



20                       OIG Report No. ISP-IB-11-29 - Inspection of Radio Free Asia - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



Notwithstanding the HR Horizon and the frequent town meetings and broadcast emails
from upper management, the OIG inspectors noted that a number of employees wished
there was a means to communicate positive operational ideas or constructive suggestions
upward to management. Given the broad base of experience and knowledge of the
RFA workforce, the RFA management could benefit significantly from these sugges-
tions. Accordingly, OIG inspectors left an informal suggestion to develop a “suggestion
box”—either physical or on-line, to promote getting suggestions from the employees.
This would also signal an increased receptivity of upper management to input from the
employees. RFA indicated that it would establish an intranet link for suggestions.


Orientation
HR has developed an orientation program for new employees, covering issues ranging
from proper safeguarding of confidential information, conflict of interest/nepotism
policies, the code of journalistic ethics, use of technology resources, prevention of
sexual harassment and discrimination, Equal Employment Opportunity (EEO) poli-
cies and so forth. New employees sign forms to acknowledge receipt of the orienta-
tion briefing and compliance with all policies (to avoid future “protests of ignorance
of the policy”), and complete the usual panoply of information forms, contact
information, and initiation of benefits forms. They receive comprehensive briefing
booklets describing each of the generous benefits offered by RFA. OIG inspectors
noted that numerous employees commended the completeness and usefulness of the
orientation program in getting them off to a good start.


Performance Evaluation and Job Descriptions
To improve the results of the performance evaluation process, the HR director
conducted eight training sessions (both live and electronic) to cover all supervisors.
Completion of the evaluation forms is electronic. The procedures and definitions are
standardized and are posted on the intranet. All ratings by the rating and reviewing
officers are reviewed by both the HR director and the president, and are subject to
adjustment. Once approved, the evaluations are reviewed with the employees. The
ratings are important because the resulting numerical index has a direct impact on
the size of the employee’s performance award for the year. OIG inspectors performed
a spot check on the performance evaluation files and found them to be comprehen-
sive, accurate, and complete.

While most employees consider their performance evaluations fair, a few employees
are not happy with the performance evaluation system. Their main complaints
seemed to lay in the area of inconsistency between supervisors in applying the rating
scale (“hard graders vs. easy graders”), favoritism (which may be a subjective obser-
vation) and the need for better supervisor training (which management has been
addressing).

                    OIG Report No. ISP-IB-11-29 - Inspection of Radio Free Asia - March 2011   21


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



     Hiring Procedures
     OIG reviewed RFA’s hiring procedures, which are clearly delineated in their policy
     statement. The process involves posting job opportunities on the Web site and other
     relevant media, initiating and maintaining contact with candidates, getting resumes
     into the data base, coordination with the hiring managers and facilitating their
     requirements, arranging interviews, filing all related paperwork, ensuring security
     forms are properly filled out and processed to International Broadcasting Bureau
     Security, arranging for fingerprinting of candidates and preparation of offer letters.
     OIG inspectors performed a spot check of the recruiting and hiring files and found
     them to be accurate and properly documented.


     Training
     Besides the performance evaluation training noted above, all senior staff and
     managers have been trained this year in Equal Employment Opportunity and Fair
     Employment practices. RFA is now working on an update to the training program
     for the workers (last performed in 2007-2008 with the help of BBG’s Office of Civil
     Rights). For job-related training, each department has its own training requirements
     and training programs. The training budget decreased from $100,000 to $36,000
     last fiscal year. This has meant that RFA conducts little outside training (usually
     involving outside consultants) and uses mostly internal, on-the-job training.

     RFA promotes an English-language-proficiency program that lasts 12 weeks and
     is sponsored by George Mason University for those who need it. It also has been
     searching actively for Web training courses to assist with journalism and new media
     training. The technical operations division usually conducts its own training, in an
     apprenticeship mode.

     OIG inspectors observed that both employees and managers felt that there has been
     insufficient funding for training. For example, more training for first—and second-
     level managers could be beneficial. A common observation was that service manag-
     ers/directors and senior editors, while highly experienced and skilled, often had little
     training in managerial and supervisory skills. OIG inspectors left an informal recom-
     mendation that RFA pursue managerial training for first—and second-level supervi-
     sors. The RFA president instructed that such training be initiated.


     Awards
     All employees are eligible for performance awards, which are determined based on
     their numerical performance-evaluation scores. There is currently no other RFA
     award program. RFA management has been considering establishing a service award



22                       OIG Report No. ISP-IB-11-29 - Inspection of Radio Free Asia - March 2011


                    SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



in time for the upcoming 15-year anniversary of the start of RFA, which would
enable the possibility of 15-year (and possibly 10-year) service awards. When RFA
personnel are cited for awards by the BBG or outside journalism organizations, these
honors are featured in the HR Horizon and often the individuals are recognized in a
public ceremony.

OIG inspectors left an informal recommendation that RFA, in setting up the
planned service awards, explore having awards ceremonies perhaps once or twice a
year to recognize performance, special accomplishments, etc. These could involve
recognition such as cash awards and certificates of appreciation to encourage other
employees to try harder. RFA management said that it anticipated a new awards
ceremony during RFA’s 15th anniversary year of broadcasting.


Equal Employment Opportunity
RFA conducted anti-sexual harassment training (with the help of BBG’s Office of
Civil Rights) in 2007 for all employees. The training is conducted by RFA’s human
resources director and general counsel. RFA has been developing its own training
program more recently. It has been given to senior staff and all supervisors already.
They are working on a tailored program for the rest of the employees to be conducted
in early 2011. Also, sensitivity to EEO, sexual harassment and conflicts of interest
is part of every new employee’s orientation program. All employees must complete
forms regarding nepotism or knowledge of the employment of any relatives at RFA
when they first come on board and whenever there is a change.

In the past several years only one formal complaint was sent to the EEO
Commission, and it was later withdrawn. If any employees are aware of any problems
in these areas, they are instructed to bring them up to their service director, or to the
director of human resources or the general counsel. The HR director investigates any
complaints that are presented to him. OIG inspectors noted that, as mandated, the
EEO bulletin board was prominently located in the main employee lunch room and
properly listed the policy and procedures to be followed in the case of EEO or sexual
harassment and related problems.


Union (Guild)
Negotiations for the original union (Guild) contract between RFA and the
Washington-Baltimore Newspaper Guild, Local #32035,8 took place between 2001
and 2003. The National Labor Relations Board certified the contract on July 13, 2003.
The contract covers the broadcasters and related job categories who make up about

8
 Chartered by The Newspaper Guild – Communications Workers of America (American Federation of Labor
and Congress of Industrial Organizations, Central Labor Council)



                       OIG Report No. ISP-IB-11-29 - Inspection of Radio Free Asia - March 2011       23


                 SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



     half of RFA’s employees. Both RFA management and local representatives of the Guild
     described the interaction between RFA and the Guild as “constructive.” In the last 2
     years, there have been four grievances presented by the Guild: one went to arbitration,
     one was settled, and two are in Step 1 or Step 2 processing. The grievance procedures
     appear to be working properly. OIG inspectors noticed the Guild bulletin board in the
     main RFA lunch room, which held notices and other information for members.




     FINANCIAL MANAGEMENT
     The finance section is well managed. Last year’s audit conducted by Certified
     Public Accountants Gelman, Rosenberg & Freedman found that RFA is following
     accounting procedures in accordance with the U.S. Generally Accepted Accounting
     Principles. The section is led by an experienced chief financial officer who oversees
     the day-to-day operations. The budget officer is responsible for updating the annual
     budget and communicating the status of funds periodically to the service directors
     and chief of sections. The section has seven employees who process all the financial
     transactions for both domestic headquarters and overseas. They are all cross-trained
     and they back up each other during absences. The OIG team noted teamwork among
     all of the staff and cooperative relations with the program offices.

     RFA has one grant and its senior management is familiar with grant content, prac-
     tices, and restrictions. Its legal team has participated in the Washington, DC, Bar’s
     continuing legal education program entitled “Nuts and Bolts of Federal Grants Law.”

     A review of a sample of travel vouchers and payments to stringers and editorial
     consultants showed that financial transactions appear to be properly conducted,
     maintained, and reported. The monthly reports sent to BBG are prepared on time
     and in accordance with the grant agreement. The review of time and attendance
     records showed that they are properly recorded with appropriate supporting docu-
     ments (i.e., leave approval document, overtime approval document). The petty cash
     reconciliations are conducted periodically.


     Procurement
     The procurement operations fall under the finance section. One employee is respon-
     sible for processing the full range of acquisition functions for RFA in headquarters
     and overseas. In FY 2010, RFA processed 856 procurement actions (both domestic
     and overseas) with a total of $1.8 million. In general, RFA is competing purchases for
     goods and services. Based on a limited review of purchase orders and purchase cards,
     the files are adequately maintained with three price quotes included. However, the



24                       OIG Report No. ISP-IB-11-29 - Inspection of Radio Free Asia - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



OIG team did not find evidence that RFA has advertised in print or on the Internet
for services requiring competition. RFA’s approach may give the appearance of
limited competition, thus potentially excluding qualified bidders and more economi-
cal bidders. The OMB Circular A-110 requires that “all procurement transactions
shall be conducted in a manner to provide, to the maximum extent practical, open
and free competition.” RFA management said that it would determine a practical
and viable means of advertising. This issue was addressed through an informal
recommendation.

The OIG team also reviewed sole-source purchases. OIG found that out of 856
procurement actions, only 42 were purchased without soliciting bids from multiple
sources. The total money spent on sole-source purchases in FY 2010 was $671,288 or
39 percent of the FY 2010 total cost of procurement actions. This percentage appears
to be high. In reviewing the files of sole-source vendors, the OIG team noted two
minor weaknesses. First, the procurements showed that some vendors were being
used on a continual basis, with purchases from at least five vendors each totaling
from about $41,000 to more than $130,000. Although RFA is not bound by the
Federal Acquisition Regulation (FAR), FAR 5.101 requires government agencies to
publicize procurements expected to exceed $25,000 as a means to enhance competi-
tion. Second, the written justification used in the sole-source purchases is weak. From
the reviewed sample, only one written justification followed RFA procedures for
preparing justification for sole-source procurement. The review of the sample written
justifications showed that there was no description of the technical or performance
characteristics or why these characteristics were essential and unique that no other
source could provide them. These two issues were the subject of informal recom-
mendations because the inspectors found no evidence of impropriety on the part of
RFA or vendors. However, continually using the same vendors and preparing weak
justification create an environment that could lead to noncompetitive practices.

RFA agreed with the OIG assessment and said that it would address the sole-source
procurement process and had directed the vice president of Administration and
Finance to approve sole-source procurements.




PERSONAL PROPERTY MANAGEMENT
Yearly inventory and reconciliation is done for the capital inventory. This information
is maintained by the finance department. The OIG team conducted a limited review
of the electronic inventory process and concluded that the process is effective and
efficient in tracking equipment, computers, software, and the staff that the equip-
ment is assigned to at headquarters and field offices. Standard operating procedures
are in place, duties separated, and safeguards in place over inventory. No major issues
were noted by the inspection team.

                    OIG Report No. ISP-IB-11-29 - Inspection of Radio Free Asia - March 2011   25


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



     INTERNAL CONTROLS
     From the last OIG review to now, RFA initiated a number of improvements in its
     administrative operations, including the regularization or standardization of processes
     and procedures. RFA senior staff and employees alike appear to be attentive to issues
     of waste, fraud, and mismanagement.

     The RFA’s audit for this year will be focused on internal controls. This is a good step
     in the right direction. The review of the processes and procedures revealed one inter-
     nal controls weakness in the procurement process. It appears that there is no approval
     process by a higher authority in preparing the justification for sole-source procure-
     ments. The current process gives the appearance that the requestor is also approving
     the sole-source justification. The purchasing manager does not have the authority to
     approve or disapprove the written sole-source justification; his only job is to ensure
     that a written justification is submitted with the request. It would be beneficial if the
     vice president of administration and finance approved the sole-source procurements
     before they are processed. Following this procedure, the vice president could correct
     weak justifications and provide better oversight on sole-source procurements. The
     OIG team made an informal recommendation addressing this weakness.




26                        OIG Report No. ISP-IB-11-29 - Inspection of Radio Free Asia - March 2011


                    SENSITIVE BUT UNCLASSIFIED
             SENSITIVE BUT UNCLASSIFIED



RECOMMENDATIONS

There are no formal recommendations.




                  OIG Report No. ISP-IB-11-29 - Inspection of Radio Free Asia - March 2011   27


             SENSITIVE BUT UNCLASSIFIED
     SENSITIVE BUT UNCLASSIFIED




28     OIG Report No. ISP-IB-11-29 - Inspection of Radio Free Asia - March 2011


     SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



INFORMAL RECOMMENDATIONS

Informal recommendations cover operational matters not requiring action by orga-
nizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any
subsequent OIG inspection or on-site compliance review will assess the mission’s
progress in implementing the informal recommendations.


New Media Technology
Lack of mutual understanding about new media issues exist between the technical
operations and new media staffs.

Informal Recommendation 1: The Broadcasting Board of Governors should require
that Radio Free Asia hold regular meetings involving media staffers and technical
operations employees to allow for a better understanding of each other roles and
open discussion of needs, desires, problems, opportunities, priorities, implementation
schedules, and financial and personnel realities.


Communications
There is the need for more cross-fertilization of ideas among the language services,
but this condition arises from the market-focused nature of surrogate broadcasting,
cultural sensitivities, language problems, and the fast pace of the work.

Informal Recommendation 2: The Broadcasting Board of Governors should require
that Radio Free Asia institute a regularly scheduled meeting where mid-level repre-
sentatives from all areas may exchange information and ideas.

Given the broad base of experience and knowledge of the RFA workforce, RFA
management could benefit from a mechanism to receive operational or policy sugges-
tions from the workforce.

Informal Recommendation 3: The Broadcasting Board of Governors should require
that Radio Free Asia provide a suggestion box either physical or on-line through
which personnel may offer suggestions to managers without fear of retribution.




                    OIG Report No. ISP-IB-11-29 - Inspection of Radio Free Asia - March 2011   29


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



     Training
     Both managers and employees said that some supervisors, while highly experienced
     and skilled, often had little training in managerial and supervisory skills.

     Informal Recommendation 4: The Broadcasting Board of Governors should
     require that Radio Free Asia provide leadership training for first- and second-level
     supervisors.


     Awards
     RFA management is establishing a service award in time for the upcoming 15-year
     anniversary of the start of RFA.

     Informal Recommendation 5: The Broadcasting Board of Governors should
     require that Radio Free Asia hold awards ceremonies perhaps once or twice a year to
     recognize performance, special accomplishments, and extra efforts, as it sets up the
     planned service awards.


     Procurement
     Although the majority of procurement actions do not require advertisement to
     increase competition and best value, RFA has not advertised in print or on the
     Internet for the small services that require competition.

     Informal Recommendation 6: The Broadcasting Board of Governors should require
     that Radio Free Asia advertise in print or in the Internet through its Web site for
     services to provide, to the maximum extent practical, open, and free competition.

     Some sole-source procurement files showed that some vendors were being used on a
     continual basis.

     Informal Recommendation 7: The Broadcasting Board of Governors should require
     that Radio Free Asia use a variety of vendors to the maximum extent practical.

     Some sole-source justifications are weak and they do not address the technical or
     performance characteristics of the goods or service, why these characteristics are
     essential or why the goods or service cannot be obtained from any other source.

     Informal Recommendation 8: The Broadcasting Board of Governors should require
     that Radio Free Asia prepare well written justification for sole-source procurements.




30                       OIG Report No. ISP-IB-11-29 - Inspection of Radio Free Asia - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



Internal Controls
There is no approval process by a higher authority in preparing the justification for
sole-source procurements.

Informal Recommendation 9: The Broadcasting Board of Governors should require
that Radio Free Asia’s vice president of administration and finance approves the sole-
source procurements before they are processed by the purchasing department.




                    OIG Report No. ISP-IB-11-29 - Inspection of Radio Free Asia - March 2011   31


               SENSITIVE BUT UNCLASSIFIED
     SENSITIVE BUT UNCLASSIFIED




32     OIG Report No. ISP-IB-11-29 - Inspection of Radio Free Asia - March 2011


     SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



RADIO FREE ASIA PRINCIPAL
OFFICIALS

                                                                                                  Arrival Date
Position                                                        Name                               in Position

RFA President                                                   Libby Liu                         Sept. 7, 2005
Vice President for Programming/Executive Editor                 Dan Southerland                    July 8, 1996
Deputy Director of Programming                                  Alex Tseu                         Aug. 1, 1996
Deputy Director of Programming                                  Susan Lavery Rodgers             Sept. 10, 2001
Vice President for Administration & Finance                     Norm Thompson                     Jan. 16, 2006
Chief Technology Officer (new title)                            David Baden                        July 1, 1996
Chief Financial Officer                                         Patrick Taylor                   Mar. 12, 1996
General Counsel                                                 Bernadette Burns                 Apr. 14, 2008
Director of Communications/External Relations                   John Estrella                    Sept. 24, 2007
English News Director                                           Param Ponnudurai                   Oct. 1, 2010
Director-Managing Editor, RFA Online                            Catherine Antoine                June 14, 2004
Executive Administrator                                         Jane Wilhelm                      June 17, 1996
Language Service Directors
    Mandarin                                                    Jennifer Chou                      Jan. 1, 1998
    Tibet                                                       Jigme Ngapo                        July 1, 1996
    Cantonese                                                   Wo Tak Li                        Apr. 25, 2005
    Burmese                                                     Nyein Shwe                         July 2, 2007
    Uyghur                                                      Dolkun Kamberi                     Jan. 1, 2001
    Vietnamese                                                  Khanh Van Nguyen                 Nov. 15, 2009
    Korean                                                      Max Kwak                           June 7, 2010
    Cambodian                                                   Sos Kem                          Aug. 30, 2004
    Lao                                                         Viengsay Luangkhot               Sept. 16, 1997




                      OIG Report No. ISP-IB-11-29 - Inspection of Radio Free Asia - March 2011                    33


                 SENSITIVE BUT UNCLASSIFIED
     SENSITIVE BUT UNCLASSIFIED




34     OIG Report No. ISP-IB-11-29 - Inspection of Radio Free Asia - March 2011


     SENSITIVE BUT UNCLASSIFIED
       SENSITIVE BUT UNCLASSIFIED



ABBREVIATIONS

BBG	             Broadcasting Board of Governors
CFO	             Chief Financial Officer
EEO	             Equal Employment Opportunity
HR	              Human Resources
NYF	             New York Festivals
OIG	             Office of Inspector General
OMB	             Office of Management and Budget
RFA	             Radio Free Asia
VOA	             Voice of America




         OIG Report No. ISP-IB-11-29 - Inspection of Radio Free Asia - March 2011   35


       SENSITIVE BUT UNCLASSIFIED
     SENSITIVE BUT UNCLASSIFIED




36     OIG Report No. ISP-IB-11-29 - Inspection of Radio Free Asia - March 2011


     SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



APPENDIX A: RADIO FREE ASIA
CODE OF JOURNALISTIC ETHICS

At the very core of RFA’s mission is strict adherence to the highest standards of jour-
nalism. All RFA journalists (including all who gather, obtain, post, or disseminate
reports or programs for RFA) must conduct themselves professionally and ethically
and promote the highest standards of journalism, in accordance with the following
basic principles:9

     •	 RFA reports and programs must be accurate, fair, and balanced.

     •	 RFA journalists must maintain a calm, dispassionate tone and avoid polem-
        ics, propaganda, or slurs directed against any persons, groups, or govern-
        ments. RFA journalists must not preach or talk down to listeners.

     •	 RFA journalists must not incite listeners to violence or encourage acts of
        rebellion or emigration; rather, they should uphold democratic values such as
        the free flow of information and provide a forum for a variety of opinions and
        points of view.

     •	 RFA journalists must not include rumor or unsubstantiated information in
        any report or program. Whenever possible, they must seek and obtain more
        than one source for a story.

     •	 If an RFA journalist makes a material error in a broadcast or published RFA
        news, commentary, or information, the journalist must promptly acknowl-
        edge the error and issue a correction, typically via the same communication
        medium in which the error was disseminated.

     •	 RFA journalists must give full credit when using any part of another news
        organization’s or media source’s interviews, reports, or materials.

     •	 RFA journalists must remain independent of any political party, opposition
        group, exile organization, or religious body in the countries to which RFA
        news and information are disseminated, and must not advocate any political
        viewpoint potentially compromising or being perceived as compromising
        RFA’s objectivity or impartiality.


9
 Though journalistic matters are primarily the responsibility of the Editorial Division, all employees should be
knowledgeable and supportive of this Code of Journalistic Ethics.



                          OIG Report No. ISP-IB-11-29 - Inspection of Radio Free Asia - March 2011                 37


                   SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



         •	 RFA journalists must clearly identify outside contributors and, in any
            commentary, include a disclaimer that the opinions expressed are not neces-
            sarily those of RFA. In each case, RFA retains the right to edit the work of
            outside contributors and make the final decision as to what goes into a report
            or program.

         •	 RFA journalists must not accept anything of value such as gifts, favors, or
            trips from news sources or others who might be in a position to influence
            RFA’s reports or programs.

         •	 RFA journalists must not take on work or activities outside of RFA that
            would infringe on their responsibilities to RFA. Anyone who wants to pursue
            such an outside responsibility or activity, including the making of speeches or
            other public appearances related to the activities of RFA, must obtain prior
            approval as provided in the Conflict of Interests policy.

         •	 In their work for RFA, journalists must not identify or hold themselves out
            as representing any other entity or media organization, government body, or
            nongovernmental organization.

     Source: RFA




38                       OIG Report No. ISP-IB-11-29 - Inspection of Radio Free Asia - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



APPENDIX B: RADIO FREE ASIA
AWARDS (2010–2009)

In September 2010, broadcasters from RFA’s Vietnamese Service and Burmese Service
won gold and bronze medals respectively at the 2010 New York Festivals (NYF)
competition in broadcasting. Both winning entries produced pieces exploring the
issue of human trafficking in Asia. Additionally, broadcasters from RFA’s Mandarin
and Korean services were named as finalists by the competition’s judges for pieces
on the anniversary of the 1989 Tiananmen Square crackdown and the North Korea’s
youngest defectors.

In August 2010, The Society of Environmental Journalists awarded RFA First
Prize for Outstanding Online Reporting on the Environment for its 2010
multimedia series “The Last Untamed River.” RFA’s investigative reporting trek
down the Mekong River, with original reporting in English adapted into seven Asian
languages, comprised 22 high-quality videos, along with blogs, graphics, slideshows,
and other social media features.

In May 2010, RFA contributor and Tibetan blogger Tsering Woeser won the
2010 Courage in Journalism Award, sponsored by the International Women’s
Foundation. Woeser, based in Beijing, was recognized for her bravery in persisting
to blog and report on Tibetan human rights abuses in China despite threats from
authorities. Though Woeser was unable to attend the awards ceremony, held in
October in New York, she delivered her acceptance speech to attendees by video.

In February 2010, RFA won the American Women in Radio and Television Gracie
Award for its multimedia feature titled “Half the Xinjiang Sky” in the category of
Outstanding Website – News. The multimedia Web page showcases RFA’s extensive
coverage of protests led by Uyghur women in the immediate and long-term aftermath
of the Uyghur-Han ethnic riots and the crackdown led by Chinese authorities in the
Xinjiang and Guangdong provinces.

In July 2009, New York Festivals named RFA “Broadcaster of the Year” and
awarded RFA an unprecedented seven medals for journalistic excellence. Four of
RFA’s nine language services won top honors for excellence in journalism in the interna-
tional competition, which included three gold, one silver, and three bronze medals.

    •	 Honored at NYF with gold were Mandarin reporter Ding Xiao in the
       category of Best Investigative Report for her story on a petitioner held
       illegally by authorities in a “law study group” detention center for disciplinary


                    OIG Report No. ISP-IB-11-29 - Inspection of Radio Free Asia - March 2011   39


               SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



              re-education and Uyghur broadcaster Shohret Hoshur in the Best Human
              Interest category for his exclusive story on an ethnic Uyghur woman in
              China facing a forced, third-term abortion. International pressure resulting
              from the story led to authorities releasing the woman, who was able to give
              birth to a son.

         •	 Other RFA medal winners at NYF included: Mandarin’s Peter Zhong with
            a silver in Best Investigative Report category for his feature titled “Crime
            without Punishment”; Mandarin’s Jill Ku with a bronze in the category of
            Best Special Report for her story on the arrest of a petitioner during the
            Beijing 2008 Olympics; Mandarin’s Asia Pacific Report with a bronze in the
            Best Newscast category; and Vietnamese’s Giao Pham with a bronze in the
            National/International Affairs category for his timely coverage on young
            Olympic protestors being arrested and beaten by police.

     Source: RFA




40                        OIG Report No. ISP-IB-11-29 - Inspection of Radio Free Asia - March 2011


                     SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



APPENDIX C: RADIO FREE
ASIA’S SOCIAL AND NEW MEDIA
DISTRIBUTION                                        10




YouTube (9 channels):
     1.	 http://www.youtube.com/rfavideo
     2.	 http://www.youtube.com/RFAChinese
     3.	 http://www.youtube.com/cantoneseRFA
     4.	 http://www.youtube.com/RFATibetan
     5.	 http://www.youtube.com/RFAUyghur
     6.	 http://www.youtube.com/RFABurmese
     7.	 http://www.youtube.com/RFAVietnamese
     8.	 http://www.youtube.com/RFAKhmer
     9.	 http://www.youtube.com/RFAmandarin


Flikr:
     •	 http://www.flickr.com/photos/44373612@N02/sets/72157622623274219/


RFA News Blogs (17):
     1.	 Khmer
         http://www.rfakhmerplus.com
     2.	 Chinese
         http://www.rfachina.com; http://www.gmbd.cn
     3.	 English
         http://rfaunplugged.org


10
  The external Web sites listed in this appendix were active at the time of the OIG inspection; however, OIG
takes no responsibility for unavailable or deactivated links.



                          OIG Report No. ISP-IB-11-29 - Inspection of Radio Free Asia - March 2011             41


                   SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



         4.	 Korean
             http://shortwave.tistory.com/; http://isan.tistory.com/; http://rhees.tistory.com/
         5.	 Vietnamese
             http://www.rfavietnam.com/
         6.	 Tibetan
             http://www.paldengyal.com/; http://youshun12.com/; http://www.sherabt.org/;
             http://www.gaitho.com/; http://enrichingthoughts.blogspot.com/;
             http://rangwanglengtek.wordpress.com/
         7.	 Uyghur
             http://www.azigh.com
         8.	 Burmese
             http://kmhtun.wordpress.com


     Facebook (8):
         1.	 Radio Free Asia
             http://www.facebook.com/pages/Radio-Free-Asia/31744768821?ref=s
         2.	 RFA Tibetan
             http://www.facebook.com/pages/RFA-Tibetan/42108497470
         3.	 RFA Burmese
             http://www.facebook.com/pages/RFA-Burmese/39218993127
         4.	 RFA Mandarin
             no current link
         5.	 RFA Cantonese
             http://www.facebook.com/pages/RFA-Cantonese/190712519515
         6.	 RFA Korean
             http://www.facebook.com/pages/RFA-Korean/117459698841
         7.	 RFA Uyghur
             http://www.facebook.com/pages/Erkin-Asiya-Radiosi/106605925076
         8.	 RFA Vietnamese
             http://www.facebook.com/pages/Dai-A-Chau-T-Do/130885564570


     Twitter (9 feeds):
         1.	 http://twitter.com/burmesenews
         2.	 http://twitter.com/cantonese

42                        OIG Report No. ISP-IB-11-29 - Inspection of Radio Free Asia - March 2011


                     SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



    3.	 http://twitter.com/khmernews
    4.	 http://twitter.com/koreannews
    5.	 http://twitter.com/laonews
    6.	 http://twitter.com/mandarinnews
    7.	 http://twitter.com/uyghurnews
    8.	 http://twitter.com/RadioFreeAsia
    9.	 http://twitter.com/vietnamnews


Delicious:
   •	 http://delicious.com/rfakorean/%E C%98%AC


RFA Message Boards (3):
    1.	 http://www.rfanews.org/vietbbs/
    2.	 http://www.rfanews.org/tibbs/
    3.	 http://www.rfanews.org/korbbs/
Inside the Great Chinese Firewall, the Mandarin service currently maintains 40 alias blog
accounts which change frequently and 20 alias micro/twitter accounts. These accounts do not
include semi-private blogs and social media sites maintained by RFA journalists.


Cell Phone Distribution (6):
Available in Mandarin, Vietnamese, English, Cantonese, Korean, Uyghur (Latin script).
    1.	 http://www.rfamobile.org/english/news
    2.	 http://www.rfamobile.org/mandarin
    3.	 http://www.rfamobile.org/cantonese
    4.	 http://www.rfamobile.org/korean
    5.	 http://www.rfamobile.org/vietnamese
    6.	 http://www.rfamobile.org/uyghur




                     OIG Report No. ISP-IB-11-29 - Inspection of Radio Free Asia - March 2011   43


               SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



     RFA Webcasts (4):
     In addition, all services offer video reporting on key issues affecting their audience.
         1.	 Mandarin
             http://www.rfa.org/mandarin/rfashipin (five programs)
         2.	 Vietnamese
             http://www.rfa.org/vietnamese
         3.	 Tibetan
             http://www.rfa.org/tibetan
         4.	 Uyghur
             http://www.rfa.org/uyghur
     All services offer video reporting on key issues relevant to their audience.

     Source: RFA




44                         OIG Report No. ISP-IB-11-29 - Inspection of Radio Free Asia - March 2011


                     SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED




SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE
OR MISMANAGEMENT
 of Federal programs hurts everyone.



           Contact the
   Office of Inspector General

         HOTLINE
to report illegal or wasteful activities:


            202-647-3320
            800-409-9926

         oighotline@state.gov

              oig.state.gov

      Office of Inspector General
       U.S. Department of State
            P. O. Box 9778
         Arlington, VA 22219


     Cables to the Inspector General
    should be slugged “OIG Channel”
        to ensure confidentiality.




SENSITIVE BUT UNCLASSIFIED
